                                         OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM




DATE:          August 18, 2005

TO:            Chairman

FROM:          Inspector General

SUBJECT:       Report on Audit of the E-rate Program at St. Patrick Catholic School, St.
               Croix, U.S. Virgin Islands

The Office of Inspector General (OIG) has completed an audit of the E-rate Program
benefits received by St. Patrick Catholic School (the School), a beneficiary of the
Universal Service Fund (USF). A copy of the Audit Report, entitled “Final Report on
Audit of the E-rate Program at St. Patrick Catholic School, St. Croix, U.S. Virgin
Islands” is attached. The objective of this audit was to assess the beneficiary’s
compliance with the rules and regulations of the USF program and to identify areas in
which to improve the program.

In January 2003, the OIG and the Universal Service Administrative Company (USAC)
entered into a Memorandum of Understanding (MOU) with the Department of the
Interior (DOI) OIG to conduct audits of E-rate beneficiaries. This audit was conducted
by DOI OIG under the terms of this MOU.

Based on the results of the audit, we have concluded that the School did not comply with
key requirements of the E-rate program for funding year 2000. The audit resulted in five
(5) findings and $137,571 in potential fund recoveries. We recommend that the Wireline
Competition Bureau direct the Universal Service Administrative Company (USAC) to
recover the amount of $137,571 disbursed on behalf of St. Patrick Catholic School in
funding year 2000.

DOI OIG held an exit conference with the School’s representative on January 14, 2004 to
discuss a preliminary draft of this report, which was provided to the School on January 8,
2004. The School provided a written response on January 23, 2004. In their response,
the school expressed agreement with the report’s findings.

On September 1, 2004, we provided a copy of our draft audit report to the Chief of the
Wireline Competition Bureau (WCB). We requested that WCB provide comments on the
draft report andthat their commentsindicateconcurrenceor non-concurrence  with the
audit resultsand recommendations.On October14,2004,WCB provideda responseto
the draft report. However,the commentsprovidedby WCB were not endorsedby the
Commission'sAudit Follow-up Official in accordancewith the Commission'sAudit
Follow-up Directive. Despiterepeatedrequestsfor properly endorsedcommentsto this
report in the eleven(11) monthssincethe reportwas issuedin draft, no endorsed
commentshavebeenprovided. As a result,we havedecidedto issuethis report in final.
If WCB providescommentsto this report,we will decideif it is necessaryto issuea
 supplementalfinal report incorporatingthosecomments.

If you haveany questions,pleasecontactme or ThomasCline, AssistantInspector
Generalfor Policy andPlanning,at (202) 418-7890.

                                       -14"(A.h1'C.i.l
                                                    ~
                                                      (Q-/         ~
                                                                 Q./)


                                          H. Walker FeasterIII

Attachments

Copy furnished:

Rev. KennethGaddy,C.Ss.R.,Pastor,St. PatrickCatholic School
Chief, Wireline CompetitionBureau
Mel Blackwell, Acting Vice President,Schoolsand LibrariesDivision, USAC
PerformanceEvaluationandRecordsManagement,FCC Office of ManagingDirector
                                                                            R-GR-FCC-0009-2003


                United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   External Audits Division
                             12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                   August 15, 2005


                              AUDIT REPORT
Memorandum

To:        Inspector General
           Federal Communications Commission

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Report on Audit of the E-rate Program at St. Patrick Catholic School, St. Croix,
           U.S. Virgin Islands

        This report presents the results of our audit of the E-rate Program benefits received by St.
Patrick Catholic School (School), from the Universal Service Fund. The E-rate Program
provides discounts on the cost of obtaining communication services, such as basic phone service,
Internet access, and internal connections (wiring and network equipment), to eligible schools and
libraries. The objectives of this audit were to determine whether the School complied with the
E-rate Program rules and regulations and to identify Program areas that may need improvement.
We conducted this review in accordance with the Memorandum of Understanding between the
Department of the Interior Office of Inspector General, the Universal Service Administrative
Company, the Federal Communications Commission (FCC) Office of Managing Director, and
the FCC Office of Inspector General.

        We concluded that the School did not comply with key Program requirements of the
E-rate Program for Funding Year 2000. However, we were not able to determine whether the
School complied with all E-Rate Program requirements because of a lack of records. We
recommend that the FCC Office of Inspector General take the actions necessary to resolve the
report findings.

        We held an exit conference January 14, 2004, with the School’s representative to discuss
a preliminary draft of this report, which was provided to the School on January 8, 2004. The
School’s January 22, 2004, response (see Appendix) expressed agreement with the report’s
findings.

        If you have any questions regarding this report, please contact me at (703) 487-5345.
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                                                    Table of Contents
                                                                                                                     Page

INTRODUCTION ...................................................................................................      1
     Background .................................................................................................     1
     Objectives, Scope, and Methodology ..........................................................                    2
     Scope Limitation .........................................................................................       3

RESULTS OF REVIEW .........................................................................................           4
     Summary .....................................................................................................    4
     Technology Plan Not Adequately Prepared ................................................                         4
        Required Plan Elements ........................................................................               4
        Overall Plan Deficiencies ......................................................................              5
     School Funding Not Budgeted or Approved ...............................................                          6
        Lack of Support for Payment of Non-Discounted
            Portion of Contracted Services..........................................................                  6
     Competitive Award Process Not Documented ............................................                            7
     Contracted Services Not Completed ...........................................................                    7
        Internet Access Not Effectively Utilized ..............................................                       9
     Record Keeping Inadequate ........................................................................               9
        Consultant’s Records Not Available .....................................................                     10

APPENDIX

          St. Patrick’s January 22, 2004, Response to the Preliminary
              Draft Report Discussed at the Exit Conference .....................................                    12

ACRONYMS

DOI................ Department of the Interior
FCC ............... Federal Communications Commission
LAN .............. Local Area Network
MDF .............. Main Distribution Frame
MOU.............. Memorandum of Understanding
OIG................ Office of Inspector General
SLD ............... Schools and Library Division of USAC
USAC ............ Universal Service Administrative Company
USF................ Universal Service Fund
Final Report on Audit of the E-rate Program at St. Patrick Catholic School



                         INTRODUCTION
                            The Universal Service Fund (USF) provides affordable access to
Background                  eligible communication services for schools, libraries, rural health
                            care providers, low-income consumers, and companies serving high-
                            cost areas. On May 7, 1997, the Federal Communications
                            Commission (FCC) adopted a Universal Service Order (FCC
                            Order 97-157) implementing the Telecommunications Act of 1996,
                            including the E-rate Program of the USF.

                            The Universal Service Administrative Company (USAC) is
                            responsible for administering the USF under the direction of the FCCs
                            Wireline Competition Bureau. The Schools and Library Division of
                            USAC (SLD) administers the E-rate Program. Under the E-rate
                            Program, eligible schools and libraries may receive discounts from 20
                            to 90 percent of the cost of eligible communication services,
                            depending on economic need and location of the beneficiary.

                            Discounts may be applied to three kinds of eligible communication
                            services:

                              • Telecommunication services, including basic phone service.
                              • Internet access.
                              • Internal connections, including wiring and network equipment
                                needed to bring information directly to classrooms or library
                                patrons.

                            In accordance with the Inspector General Act of 1978, as amended,
                            the FCC Office of Inspector General (OIG) has oversight
                            responsibilities for the USF as a Federal program of the FCC. The
                            FCC OIG has designed a plan of audit oversight to provide FCC
                            management with a reasonable level of assurance that E-rate
                            beneficiaries are complying with E-rate Program rules and regulations
                            and that E-rate Program controls are adequate to prevent fraud, waste,
                            and abuse.

                             We conducted this review in accordance with a Memorandum of
                             Understanding (MOU) between the Department of the Interior (DOI)
                             OIG, USAC, FCC Office of Managing Director, and the FCC OIG.
                             Under the MOU, DOI OIG will apply specific procedures for the
                             audit of beneficiaries of E-rate Program funds.




                                               1
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                                    St. Patrick’s Catholic School is a 136-year old church-based
                                    parishioner-supported school located in Frederiksted, St. Croix, U.S.
                                    Virgin Islands. The School offers academic programs for
                                    approximately 250 students in pre-kindergarten through 8th grade.
                                    The School is accredited by the Middle States Association of
                                    Colleges and Schools.

                                    Our objectives were to determine whether the School complied with
Objectives, Scope                   the rules and regulations of the E-rate Program and to identify
and Methodology                     Program areas that may need improvement.

                                    The scope of the review was designed to test school compliance with
                                    the following E-rate Program requirements contained in Title 47, Part
                                    54 of the Code of Federal Regulations (47 CFR § 54.500 through 47
                                    CFR § 54.520):

                                     • The school certifies it has an approved technology plan.
                                     • The school determines its discount percentage based on the
                                       percentage of their student enrollment that is eligible for a free or
                                       reduced price lunch under the national school lunch program or a
                                       federally-approved alternative mechanism1.
                                     • Services rendered comply with the school’s application for E-rate
                                       funds and are installed or provided before the installation
                                       deadline.
                                     • The school uses a competitive process to select the most cost
                                       effective service provider.
                                     • The school purchases equipment and services in accordance with
                                       applicable procurement rules and regulations.
                                     • The applicant pays its portion of the pre-discounted costs.
                                     • The school certifies it has adequate resources to use the
                                       discounted services for which funding has been provided.
                                     • The school certifies that it has complied with all of the program
                                       rules.




1
  Because the U.S. Virgin Islands provide free meals or milk to all children in schools under their jurisdiction they are
not required to make individual eligibility determinations (7 CFR § 245.4). According to USAC, the U.S. Department
of Agriculture verified that all schools in the Virgin Islands are eligible for the free lunch program. The U.S. Virgin
Islands Department of Education substantiated that all students are eligible for the Child Nutrition Lunch Program. As a
result, USAC determined that all schools in the Virgin Islands were eligible for a 90 percent discount rate for the
funding years audited.



                                                           2
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                            Funds USAC committed and disbursed for Funding Years 2000 and
                            2001 by service type are as follows:

                               Funding      Amount            Amount
                                Year       Committed          Disbursed        Service Type
                                 2000               $2,979             $0    Telecommunications
                                 2000           $17,074          $12,938     Internet Access
                                 2000          $124,676         $124,633     Internal Connections

                                 2001               $1,242             $0    Telecommunications
                              TOTALS           $145,971         $137,571

                            We performed our review of the School during the period March
                            through December 2003. We visited the School in March and May
                            2003 to conduct an entrance conference with the school
                            administration, perform site inspections, conduct an inventory
                            verification of the equipment installed by the service providers, and
                            obtain documentation needed for our review.

                            We conducted our review in accordance with Government Auditing
                            Standards issued by the Comptroller General of the United States. As
                            part of our review, we obtained an understanding of the School’s
                            specific management controls relevant to the E-rate Program.
                            Because of inherent limitations, a study and evaluation made for the
                            limited purposes of our review would not necessarily disclose all
                            material weaknesses in the control structure.

                            Our audit was limited in that the School did not have complete
Scope Limitation            records to substantiate whether it complied with all rules and
                            regulations of the E-rate Program. School officials advised us that
                            they hired a consultant to manage the School’s Funding Year 2000 E-
                            rate Program. The officials also told us that the consultant was no
                            longer working or living in the area and that the School did not have
                            all of the consultant’s records of the work performed on behalf of the
                            School. As a result, we were not able to determine whether the
                            School complied with all E-rate Program requirements.




                                                3
Final Report on Audit of the E-rate Program at St. Patrick Catholic School



                        RESULTS OF REVIEW
                                       We found that the School did not meet two of the key requirements
Summary                                for E-rate Program assistance. Specifically, the School:

                                         ¾ Did not have an adequately prepared technology plan.

                                         ¾ Did not budget or approve funding to pay the non-discounted
                                           portion of contracted services and for other technology related
                                           expenditures.

                                       In addition, we found that the School:

                                         ¾ Did not maintain records for the competitive award of two
                                           contracts totaling $124,633.

                                         ¾ Did not ensure that contracted services were properly
                                           completed and that the planned local area network (LAN) was
                                           operational.

                                         ¾ Did not maintain adequate records of its E-rate program
                                           activities or those performed by the School’s consultant.

                                         These matters are discussed in more detail in the paragraphs that
                                         follow.

                                       The School’s technology plan (Plan) was deficient because it did not
Technology Plan Not adequately address the five technology plan elements that USAC
Adequately Prepared guidance required for technology plan approval.

      Required Plan                    USAC guidance states that the technology plans must address five
      Elements                         criteria that are core elements2 of the plan. The approver must
                                       determine that the technology plan:

                                           • Establishes clear goals and a realistic strategy for using
                                             telecommunications and information technology to improve
                                             education; (FCC Order 97-157, paragraph 573)
                                           • Has a professional development strategy to ensure that staff
                                             know how to use these new technologies to improve
                                             education; (FCC Order 97-157, paragraph 572 (4))
                                           • Includes an assessment of the telecommunication services,
                                             hardware, software and other services that will be needed to
                                             improve education services; (FCC Order 97-157, paragraph
                                             572)

2
    We determined that four of the five criteria are based on FCC Order 97-157. See reference in each requirement.


                                                            4
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                                 • Provides for a sufficient budget to acquire and support the
                                   non-discounted elements of the plan: the hardware, software,
                                   professional development, and other services that will be
                                   needed to implement the strategy; (FCC Order 97-157,
                                   paragraph 574) and
                                 • Includes an evaluation process that enables the school to
                                   monitor progress toward the specified goals and make mid-
                                   course corrections in response to new developments and
                                   opportunities as they arise.

   Overall Plan               We identified four overall deficiencies in the School’s Plan as
   Deficiencies               follows:

                                 • The Plan did not identify the period it covered or the effective
                                   date.
                                 • There was no signature of a School official to signify that the
                                   Plan was a policy and planning document of the School.
                                 • Except for the cover, the plan did not indicate that it was for
                                   St. Patrick’s Catholic School.
                                 • Three sections of the Plan were the same as sections in the
                                   plans for a high school and an elementary school where the
                                   consultant was also working and thus may not have reflected
                                   the specific needs of the School.

                                 In addition, the Plan did not specifically address the five required
                                 core elements as follows:

                                      Plan goals were general and the Plan lacked a strategy
                                       describing how the School would use technology to
                                       improve the education of its students.
                                      The Plan talked in generalities about training the staff
                                       and students in basic skills on how to use a computer.
                                       The Plan did not discuss how the staff would be trained
                                       to integrate technology into the education process or how
                                       computer technology will be used to enhance/improve
                                       education in the core curriculum areas.
                                      The Plan identified some hardware the School
                                       anticipated purchasing, but there was no timetable for
                                       acquiring the hardware or budget information for
                                       financing the purchases. The Plan did not discuss any
                                       specific education-related software applications. Overall,
                                       the Plan did not specifically identify how addressing the
                                       School’s technology needs (hardware, software, or
                                       training) would improve education services.
                                      The budget and funding section did not identify
                                       financing sources or otherwise substantiate that the
                                       School had adequate resources for acquiring any
                                       necessary hardware and software, and for training staff
                                       on the use of the new services.


                                                5
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                                              The Plan did not identify specific elements or criteria by
                                               which to measure progress. The evaluation section did
                                               state that the “Technology Team” would monitor and
                                               evaluate progress and that the “Committee” would report
                                               progress to the administration. However, the Plan did
                                               not contain any information concerning the organization
                                               and staffing of the “Technology Team” or the
                                               “Committee”.

School Funding Not                   The School had not budgeted or approved funding to pay the
Budgeted or                          non-discounted portion of the contracted services or the cost of any
                                     necessary hardware, software, and/or staff training to utilize the
Approved
                                     acquired E-rate Program services effectively. Title 47 CFR
                                     § 54.504(b)(2)(v) requires3 schools to certify on FCC Form 470
                                     (Description of Services Requested and Certification) that:

                                           All of the necessary funding in the current funding
                                           year has been budgeted and approved to pay for the
                                           “non-discount” portion of requested connections and
                                           services as well as any necessary hardware or
                                           software, and to undertake the necessary staff
                                           training required to use the services effectively.

                                     As already noted, the School’s Plan did not identify financing to
                                     support the new services. When asked about a technology budget,
                                     School personnel told us that U.S. Department of Education Title VI
                                     monies would be used for its technology budget. However, the
                                     School could not provide an approved budget for technology and did
                                     not receive any Title VI monies in FY 2000 or FY 2001. Lacking a
                                     budget and approved funding for technology, the School did not
                                     meet a key requirement for receiving E-rate Program discounts.

      Lack of Support                The School did not have records to substantiate that it paid the
      for Payment of                 non-discounted portion of contracts for internal connections. The
      Non-Discounted                 School had two contracts for internal connections as follows:
      Portion of
      Contracted                     •   The School contracted with Dell Marketing, Inc. to provide the
      Services                           network servers, racks, uninterrupted power supplies,
                                         installation, and configuration of the main distribution frame
                                         (MDF) of the LAN. According to School personnel, they
                                         provided funds, which were raised through contributions to the
                                         church, to the consultant to pay Dell the $4,261 non-discounted
                                         portion of the Dell internal connections contract. However,
                                         there were no records to substantiate this statement.

                                     •   The School contracted with Lindsey Electronics, Inc. for the

3
    Requirement contained in FCC Order 97-157 Paragraph 577.


                                                         6
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                                         construction and installation of the LAN backbone cabling and
                                         the wiring of routers/hubs and drops, to connect the School’s
                                         17 rooms to the MDF. According to School personnel, Lindsey
                                         never invoiced the School for the $9,587 non-discounted portion
                                         of the contract services. We were not able to confirm the
                                         School’s assertion with Lindsey Electronics because the
                                         company was no longer in business.

                                     Title 47 CFR § 54.504(a) requires schools to seek competitive bids
Competitive Award                    and § 54.511(a) requires that schools selecting a provider of eligible
Process Not                          services shall carefully consider all bids submitted and may consider
Documented                           relevant factors other than the pre-discount prices submitted by
                                     providers. Title 47 CFR § 54.516(a) requires schools to maintain for
                                     their purchases of telecommunications and other supported services
                                     at discounted rates the kind of procurement records that they
                                     maintain for other purchases.

                                     The FCC competitive bid system consists of USAC posting the
                                     applicant’s completed FCC Form 470, which describes the services
                                     requested, to an internet website4. Prospective service providers
                                     may contact the applicant for additional information and/or submit a
                                     bid to the school for the requested services. To give prospective
                                     service providers time to submit bids, the applicant must wait
                                     28 days after the internet posting before entering into a contract. We
                                     determined from USAC documentation that the School’s FCC
                                     Form 470 was posted to the USAC website and that the School
                                     waited the requisite 28 days before signing contracts.

                                     Although the School did not have written procurement requirements,
                                     we found that it did follow an established process, based on sound
                                     business and accounting practices, to document its purchases. The
                                     School maintained files that included purchase requests, vendor
                                     quotes or prices, management’s approval to purchase, receipts of
                                     goods or services, invoices, and payment approvals. However, the
                                     School did not have any records of its E-rate procurement selection
                                     and award process. According to School personnel, their consultant
                                     negotiated with the service providers and recommended the firm the
                                     School should select.

                                     The School did not ensure that the service provider completed the
Contracted Services                  contracted services in accordance with the terms of the contract for
Not Completed                        installing the School’s LAN backbone cabling and wiring. As a
                                     result, the services were not completed and the LAN is not
                                     operational and cannot be used for educational purposes to deliver
                                     information to the classroom.

4
 Title 47 CFR § 54.504(a) states “These competitive bid requirements apply in addition to state and local competitive
bid requirements and are not intended to preempt such state or local requirements.”


                                                           7
Final Report on Audit of the E-rate Program at St. Patrick Catholic School



                                     USAC approved funding for a service provider to connect all of the
                                     School’s classrooms to the MDF via the LAN. The contracted
                                     services consisted of installing cabling/wiring from the MDF located
                                     in the School’s computer lab to the router/hubs in 17 rooms on the
                                     School’s campus and for the wiring of the routers/hubs and drops
                                     within each room. In addition, wireless antennas would be used to
                                     connect the School’s campus buildings to the main building where
                                     the MDF was located. During our March 2003 site visit, a School
                                     official told us that the drops were not connected. In our verification
                                     of services performed, we determined that the service provider
                                     installed the wireless antenna and pulled cabling/wiring from the
                                     MDF and antenna connections to the 17 classrooms. However, we
                                     confirmed that the service provider did not complete the wire
                                     connections between the routers/hubs and drops within each room.

                                     School officials did not monitor the progress of the service provider
                                     and did not perform any oversight of the consultant. A School
                                     official stated that the consultant was responsible for oversight of
                                     the progress and completion of the service provider’s contract and
                                     that School officials did not perform any oversight of the contractor
                                     or consultant. However, the School’s consultant did not ensure that
                                     the service provider performed all contracted services.

                                     In addition, a former weakness in the USAC procedures permitted
                                     the School to complete and file FCC Form 486 (Receipt of Services
                                     Confirmation) with USAC before the contracted services were
                                     completed and accepted. USACs procedures permitted the early
                                     filing of the FCC Form 486 because the contracted services were
                                     scheduled to be delivered in July 2000.

                                     On June 5, 2000, the School filed the FCC Form 486. On July 20,
                                     2000, the service provider submitted the FCC Form 474 (Service
                                     Provider Invoice Form) and its detailed invoice5 to USAC for the
                                     discounted amount of $86,287.41, indicating that the last day of
                                     work was performed on July 19, 2000. The service provider
                                     claimed the full discounted portion even though not all of the
                                     contracted services had been completed. USAC disbursed the full
                                     discounted portion of $86,287.41 to the service provider for
                                     incomplete services.




5
  USAC revised its invoicing procedures for Funding Year 2001 to require schools to certify that the invoiced services
were delivered and accepted by the school. A school’s signed ‘Service Certification’ and a copy of detailed vendor
invoice must be submitted with the FCC Form 474 to USAC.


                                                           8
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


   Internet Access Not         The School could not effectively utilize the discounted services for
   Effectively Utilized        Internet access because the LAN was not operational. The School
                               requested and USAC approved funding for internet access. Despite
                               the total expenditure of $137,571 of E-rate program funds, the
                               School’s access to the Internet was virtually unchanged, as shown in
                               the following schedule:

                                                                                        Beforea Aftera        Actualb
                                                                    a
                                             Service Description                         Order Order           After
                           Dial-up Internet connections: How many?                         1         1     1
                           Dial-up Internet connections: Highest speed?                   56k      56k    56k
                           Direct connections to the Internet: How many?                   0         1     0
                           Direct connections to the Internet: Highest speed?              0      2Mbps Unknownc
                           How many rooms have Internet access?                            1        17     2
                           How many computers with Internet access?                        1       132     2
                           ___________________________
                           a
                             Based on the School’s “Services Ordered and Certification Form 471, Block 3: Impact of
                           Services Ordered in THIS Application,” for Internet access which showed the before order and
                           after order condition for each service description.
                           b
                             At the time of our March 2003 visit to the School we found that the school had one dial-up
                           account which was shared by the office and computer lab. One computer in each location
                           could be connected; however, with only one account, only one computer could be connected at
                           a time.
                           c
                             According to the internet service provider a SDSL router was installed and one PC was up and
                           running on the Internet. The service provider billed USAC for $12,938. However, School
                           personnel stated that they did not have internet access through the service provider.

                               The lack of adequate management of the contracted services resulted
                               in the waste of E-rate program resources.

                               The School did not comply with the requirement for record keeping.
Record Keeping                 Title 47 CFR § 54.516 Auditing, establishes record keeping and
Inadequate                     production of records requirements for schools as follows:

                                    (a) Recordkeeping requirements. Schools and libraries
                                    shall be required to maintain for their purchases of
                                    telecommunications and other supported services at
                                    discounted rates the kind of procurement records that they
                                    maintain for other purchases.
                                    (b) Production of records. Schools and libraries shall
                                    produce such records at the request of any auditor
                                    appointed by a state education department, the
                                    Administrator, or any state or federal agency with
                                    jurisdiction.

                               In addition, FCC Form 471, Block 6, certification No. 32 states, “I
                               (school) recognize that I may be audited pursuant to this application
                               and will retain for five years any and all worksheets and other
                               records that I rely upon to fill out this application.”


                                                      9
Final Report on Audit of the E-rate Program at St. Patrick Catholic School



                              In this particular review, we had to significantly limit the scope of
                              this audit or rely on time-consuming methods because of the lack of
                              records to substantiate the School’s compliance with program rules
                              and regulations. For example, as discussed previously we found that
                              the School could not document the competitive award process or the
                              payment of the non-discounted portion of contracted services. In
                              addition, we found that the School could not document the work
                              performed by the consultant, as discussed in the following section.

   Consultant’s Records The School agreed to pay a consultant $900 to manage its E-rate
   Not Available        Program - $500 would be paid upon acceptance of the agreement
                        and $400 would be paid upon the School receiving the Funding
                        Commitment Decision Letter from USAC. According to the
                        agreement, the consultant would perform the following services:

                              •   File the FCC Form 470.
                              •   Work with the School to develop the “USAC required three (3)
                                  year Technology Plan” for the School.
                              •   Obtain approval for the Technology Plan “from our designated
                                  VI agency”.
                              •   Develop a comprehensive “Request for Proposal” as required by
                                  USAC.
                              •   File the FCC Form 471.
                              •   Upon receiving the Funding Commitment Decision Letter from
                                  USAC, file the FCC Form 486.

                              School personnel told us that:

                              •   The consultant prepared and filed all of the FCC documents and
                                  provided the documents to the School for signature when
                                  required for filing purposes.
                              •   The consultant negotiated with service providers and
                                  recommended whom the School should contract with for
                                  requested services.
                              •   The School did not have all of the consultant’s records.

                              We could not review the consultant’s records or talk with him
                              because according to a School official he was no longer working in
                              the area.




                                               10
Final Report on Audit of the E-rate Program at St. Patrick Catholic School


                              Our review disclosed that there were management control
                              deficiencies with respect to the work performed by the consultant.
                              Specifically, we found that:

                              •   The School’s Plan did not meet the five FCC specific criteria.
                              •   The services requested on the Form 470 were not supported by
                                  the Plan.
                              •   Information on the FCC Forms 470 and 471 were not supported.
                              •   The School’s records supporting the E-rate application process
                                  were incomplete.
                              •   The School was not able to fully respond to our requests for
                                  information or supporting documentation.

                              During our March 2003 visit, School personnel found a box
                              containing copies of some consultant documents related to its E-rate
                              Program. We carefully examined the contents of the box and found
                              some useful information. However, we still had to limit our scope
                              because the School did not have complete records.




                                               11
Final Report on Audit of the E-rate Program at St. Patrick Catholic School



                                                                             APPENDIX




                                              12
